OFFICE OF THE ATTORNEY GENERAL
CRIMINAL APPEALS

Concourse Center 4

3507 E. Frontage Road. Suite 200
Tampa, FL 33607-7013
ASHLEY MOODY Phone (813) 287-7900
ATTORNEY GENERAL (813) 281-5500
STATE OF FLORIDA SNE OHE

 

   

December 21, 2020

Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.

Washington, DC 20543

RE: CASE NAME: Robert L. Davis v. Secretary, Florida Department of Corrections
Case No. 20-6361

WAIVER

Dear Mr. Harris:

Respondent, State of Florida, does not intend to file a response to the petition in the
above captioned case, unless requested so to do by the Court. This is not a case in which
the death penalty has been imposed.

Please enter my appearance as Counsel of Record for all respondents in this case.
Sincerely,

ASHLEY MOODY
ATTORNEY GENERAL

@

C. Suzafine Bechard

Chief - Assistant Attorney General

Bureau Chief, Tampa Criminal Appeals
CarlaSuzanne.Bechard@myfloridalegal.com

/gc

ce: Robert L. Davis, DC#652400, Jefferson Correctional Institution,
1050 Big Joe Road, Monticello, Florida 32344-0430
